CERTIFICATE OF COMPLIANCE
No.

18 - 2172

Annette Shands
Petitioner
versus
Lakeland Central School District, Dr. Tammy Cosgrove,
Assistant Superintendent of Human Resources
Respondents
As required by Supreme Court Rule 33. l(h), I certify that the petition for a writ of
certiorari contains

words, excluding the parts of the petition that are

exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on Decenber__

,2019

received
DEC 1 1 2019

